                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A10100077                                                                         Page 1 of 1



                  We reviewed an allegation of plagiarism in two NSF proposals 1 the Subject2 submitted.
          After receiving the Subject's explanation for the alleged plagiarism, we found sufficient substance to
          warrant referral of an investigation to the Subject's university. 3

                  The university conducted an investigation under its policies and procedures concluding that
          the Subject committed "significant acts of plagiarism," some of which were knowing and others
          reckless as part of a pattern of plagiarism. The university prohibited the Subject from submitting
          proposals and imposed internal certifications for the remainder of his contract. The university also
          chose not to renew his contract. The Subject resigned from the university shortly thereafter.

                 We concurred with the university that the Subject' s actions constituted knowing plagiarism
          and forwarded our investigation report (attached) to the Deputy Director. We recommended NSF
          send a letter of reprimand, require certification of remedial training, require certifications and
          assurances for 3 years that materials submitted to NSF do not contain research misconduct, and bar
          the Subject for 3 years from serving NSF as a peer reviewer, advisor or consultant. NSF accepted
          our recommendations.

                    This case is closed.




NSF OIG Form 2 ( 11102)
.I   I '   '   '



                                                     NATIONAL SCIENCE FOUNDATION
                                                          4201 WILSON BOULEVARD
                                                         ARLINGTON, VIRGINIA 22230

I
                                                        ,JIJL 1 6 2012

                        OFFICE OF THE
                       DEPUTY DIRECTOR



                   CERTIFIED MAIL --RETUH.1'l RECEIPT ftfl:QUESTED




                          Re:      Notice of Research Miscouduct Determination


                   Dear

                          In 2010, you served as a Principal Investigator ("PI") on two
                           to the National Science Foundation           entitled,

                                                                           " As documented in the attached
                   Investigative Report prepared by NSF's Office of Inspector General ("OIG"), these proposals
                   contained plagiarized material.

                   Research Misconduct and Proposed Sanctions
                           Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
                   or plagiarism in proposing or perfonning research funded by NSF ... "45 CFR § 689.1(a). NSF
                   defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
                   without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
                   requires that:

                          (1) There be a significant departure from accepted practices of the relevant research
                                community; and
                          (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                          (3) The allegation be proven by a preponderance of evidence.

                   45 CFR § 689.2(c).

                           Your proposals contained 229 unique lines of text, 37 embedded references and one
                   figure copied from nineteen source documents . By submitting proposals to NSF that copied the
                   ideas or words of another without adequate attribution, as described in the OIG Investigative
                   Repo1t, you misrepresented someone else's work as your own. Your conduct unquestionably
                   constitutes plagiarism. I therefore conclude that your actions meet the definition of"research
                   misconduct" set forth in NSF's regulations.
I ,.   '   \




                                                                                                             Page 2
                       Pursuant to NSF _regulations, the Foundation must also determine whether to make a
               finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
               reviewing the Investigative Report, NSF has detennined that, based on a preponderance of the
               evidence, your plagiarism was committed knowingly and constituted a significant depa1iure from
               accepted practices of the relevant research community. I am, therefore, issuing a finding of
               research misconduct against you.

                       NSF's regulations establish three categories of actions (Group I, II, and III) that can be
               taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
               issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
               NSF; requiring that an institution or individual obtain special prior approval of particular
               activities from NSF; and requiring that an institutional representative ce1iify as to the accuracy of
               repolis or certifications of compliance with pmiicular requirements. 45 CFR § 689.3(a)(l).
               Group II actions include award suspension or restrictions on designated activities or
               expenditures; requiring special reviews of requests for funding; and requiring cmTection to the
               research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
               awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
               or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

                       In determining the severity of the sanction to impose for research misconduct, I have
               considered the seriousness of the misconduct, and our determination that it was committed
               knowingly. I have also considered the fact that your misconduct was pati of a pattern of
               plagiarism. In addition, I have considered other relevant circumstances. 45 CFR § 689.3(b).

                      After assessing the relevant facts and circumstances of this case, I am taking the
               following actions against you:

                      (1) Until July 1, 2015, you must provide certifications to the OIG that any proposal or
                          report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
                          fabricated material;

                      (2) Until July 1, 2015, you must obtain, and provide to the OIG, assurances from a
                          responsible official of your employer that any proposal or report you submit to NSF as
                          a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

                      (3) By July 1, 2013, you must complete a comprehensive responsible conduct of research
                          training course within one year, and provide documentation of the program's content
                          to the OIG. The instruction should be in an interactive format (e.g., an instructor-led
                          course) and should specifically include a discussion on plagiarism and citation
                          practices; and

                      (4) Until July 1, 2015, you are prohibited from serving as a reviewer, advisor, or
                          consultant for NSF.
•   I   •




                                                                                                         Page 3
                   The certifications, assurances, and training documentation should be submitted in writing
            to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
            Arlington, Virginia 22230.


            Procedures Governing AQ.Reals
                     Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
            of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1 O(a). Any appeal
            should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
            Arlington, Virginia 22230. If we do not receive your appeal withh1 the 30-day period, this
            decision will become final.

                   For your information, we are attaching a copy of the applicable regulations. If you have
            any questions about the foregoing, please call -           Assistant General Counsel, at (703)
            292-8060.




                                                                 Sincerely,




                                                                 Cora B. Marrett
                                                                 Deputy Director




            Enclosures
            - Investigative Report
            - 45 C.F.R. Part 689
CONFIDENTIAL                                                                      CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A-10100077
                               1 March 2012
                This Confidential Report of Investigation is provided to you
                               FOR OFFICIAL USE ONLY.
 It contains protected personal infonnation, the tmauthorized disclosme of which may result in
 personal criminal liability under the Privacy Act, 5 U.S. C. § 552a. This report may be further
 disclosed within NSF on~v to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                              NSF OIG Form 22b (12/10)
CONFIDENTIAL                                                         CONFIDENTIAL


                                   Executive Summary



Allegation:         Plagiarism in two declined NSF proposals.

OIG Inquiry:        We reviewed two of the Subject's NSF proposals and identified 229 lines
                    and 1 figure apparently copied from 19 different Internet accessible sources.
                    The Subject admitted to some of the copying and asserted that his inclusion
                    of embedded references provided adequate attribution. He also asserted that
                    he had never seen some of the sources before our inquiry, although we could
                    identify no other sources with that specific language. Accordingly, we
                    referred an investigation to the University.

University          The University conducted an investigation and concluded by a
Investigation and   preponderance of evidence: the Subject committed "significant acts of
Action:             plagiarism," which were a significant departure from accepted practices;
                    some of the Subject's actions were knowing while others were reckless; and
                    the Subject's actions were part of a pattern. For the remainder of the
                    Subject's contract, he is barred from submitting proposals and must certify
                    to the University that any manuscripts submitted for publication do not
                    contain plagiarism. The University also declined to renew his contract.

OIG's Assessment:   •   The Act: The Subject copied 229 unique lines of text with 37
                        embedded references and 1 figure into 2 declined NSF proposals.
                    •   Significant Departure: The Subject's actions were a significant
                        departure from accepted practices.
                    •   Intent: The Subject acted knowingly.
                    •   Standard of Proof: A finding of plagiarism is supported by the
                        preponderance of the evidence.
                    •   Pattern: The Subject's prior publications and dissertation demonstrate
                        a pattern of similar copying with embedded references.

OIG                 •   Send the Subject a letter of reprimand notifying him that NSF has made
Recommendation:         a finding of research misconduct.
                    •   Require the Subject to certify completion of a RCR training program
                        and provide documentation of the program's content within 1 year.
                    •   Require the Subject to submit a certification for each proposal, report,
                        or other document he submits to NSF for 3 years.
                    •   Require the Subject to submit assurances from a responsible official of
                        his employer for each proposal, report, or other document he submits to
                        NSF for 3 years.
                    •   Bar the Subject from being a NSF reviewer, advisor, or consultant for 3
                        years.




                                                                                             1
CONFIDENTIAL                                                                            CONFIDENTIAL


                                                  OIG's Inquiry

        We assessed two proposals (Proposal 11 and Proposa12 2) for alleged plagiatism. We
identified 19 apparent source documents (Sources A through S), 3 none of which were shared in
common between the two proposals. The somces included published ruiicles, new service items
appearing in online newspaper editions (e.g., Associated Press), manufacturer's literatme, and
other web pages. The apparent copying is smmnarized below:

                                                                   Embedded
                      Propo~al        Source          Lines                   4       Figm·es
                                                                   references
                                         A              22                13
                                         B              14                5
                                         c              14
                                         D              13                5
                                         E              10                3
                                          F              8                1
                            1            G               8
                                         H               6                1
                                         I               6                2
                                         J               6                1
                                         K              4
                                         L               2                1               1
                                         M              4
                                         N              28                5
                                         0              22
                                         p              14
                            2
                                         Q              42
                                         R               4
                                          s              2
                      TOTALS                           229               37               1


        We contacted 5 the Subject, 6 who is the sole PI on Proposal 2 and the PI on Proposal 1
with a single CoPI. 7 He admitted to copying from some of the sources and indicated that he had




4
  An embedded reference is a citation that is copied from the source material together with the copied text and
represents the intellectual effort of the source author·s selection and synthesis of material :fi01n the relevant
literature.
~Tab 1. The




                                                                                                                    2
CONFIDENTIAL                                                                            CONFIDENTIAL


included the "original sources" (i.e., embedded references). 8 He also asserted that he had not
seen some of the other sources we identified prior to receiving our letter. 9

        Because his response did not fully explain the tmattributed text, we refened 10 an
investigation to the University 11 to obtain a full assessment of the allegation.

                                       The University's Investigation 12

        The University completed an investigation undet· its policies and procedmes, 13 including
conducting its own inquiry wherein it concuned with our assessment that a detailed investigation
was wammted. 14 ill addition to the materials we provided as part of the refenal, the University
investigation committee (the Committee) considered the Subject's testimony, 15 three of the
Subject's Jecent publications, 16 the Subject's Ph.D. dissettation, 17 an intemal proposal
submission, and the professional code of conduct for a professional society 18 to which the
Subject belongs.

        The Committee concluded that all passages of allegedly copied material we identified in
the inquiry "did indeed constitute plagiarism." 19 The Committee further noted that the
plagiarism included those passages which the Subject assetted he had provided the original
sources(i.e. , the embedded references). 20 The Committee found the copying to be a significant
depruture from the accepted practices of the relevant research community, based on its own
expettise as well as the professional society's code of conduct. 21

        Furthermore, the Committee found that the copying in Proposals 1 and 2 was part of a
pattem of copying as demonstrated by copied text identified in the tm·ee publications it examined
(Articles 1 through 3) 22 as well as the Subject's dissertation. 23 The Committee found that
approximately 40% of Alticle 2 consisted of the text from Article 1 thereby raising concems of


                                                                       is the CoP I on Proposal 1 and was also the
                                                                  our mquiry in light of indicators suggesting that the
Subject was responsible for the copying in question.
8
  Tab 27 at 334. The Subject's Inquity Response.
9
  Tab 27 at 334.
10 Tab 23. The Referral Letter.
11
12
                                  l11v,esugat1on Report and Appendixes.
13
   Tab 24, The University Research Misconduct Policy.
14 Tab 25.
15 Tab 28, Transcript of the Subject's Inquiry Testimony; and Tab 34, Transcript of the Subject's Investigation
Testimony.
16 Tabs 29- 31.
17
   Tab 32. The University pro-vided us a copy of the dissertation and we reciprocated by providing a similarity
report produced by one of our routine detection tools. We did so ·without providii1g any interpretation of the report.
18
   The Geological Society of America.
19 Tab 26 at 329.
20
   Tab 26 at 329.
21
   Tab 26 at 331.
22
   Tab 29 Article 1




                                                                                                                         3
CONFIDENTIAL                                                                         CONFIDENTIAL


duplicate publication. 24 The Committee identified approximately 90 lines of copied text from
four sources in Article 2 (noting similar copying in Article 1) and over 60 lines of copied text
from five sources in Article 3. The Committee's assessment of the dissertation found "over 1000
words ... as having come from other sources besides" the Subject. 25

        The Committee found that "a pre~onderance of evidence supports the conclusion that
significant acts of plagiarism occurred." 6 The Committee also concluded that "the impact on
the research record was negligible" with respect to Proposals 1 and 2. 27

        The Committee concluded that the plagiarism in Proposals 1 and 2 constituted "some
level of knowing and reckless action" without further specificity. 28 Particularly, the Committee
noted "a lack of understanding by the Subject, based on his inconsistent statements regarding 1)
the need for quotation marks when copying text verbatim, 2) the need for citation when
paraphrasing, and 3) his confusion about handling embedded references. 29 The Committee noted
a disconnect between the Subject's statements about being rushed to prepare the proposal and
"the significant amount of time .. . he had been working on the proposals." 30 The Committee
found "fraudulent" to be "too strong a characterization," which we interpret as the Committee
excluding purposeful (i.e., intentional) as a supported level ofintent. 31

         The Committee recommended: a finding of research misconduct against the Subject with
a letter of reprimand; the Subject be required to attend training and possibly give a lecture or
workshop on ethics; and a certification requirement with the possible inclusion of mentoring by
another faculty member.

                                          The University's Actions

        The Deciding Official 32 concurred with the Committee's finding that "significant acts of
plagiarism occurred" and the "pattern of plagiarism indicates knowing and reckless actions" as
supported by the preponderance of the evidence. The Deciding Official recommended to the
University President that the University: 1) not renew the Subject's employment at the end of
his contract; 33 2) ban the Subject from submitting proposals for external funding; and 3) require
certifications from the department chair for any manuscript the Subject submits for publication
during the remainder of his employment. 34 The University President accepted the Deciding
Official's recommendations, 35 which the University has now implemented. 36

24
   Tab 26 at 329. Duplicative publication is commonly described as a questionable research practice but does not
fall within NSF's research misconduct definition.
25
   Tab 26 at 329.
26
   Tab 26 at 331.
27
   Tab 26 at 332.
28
   Tab 26 at 332.
29
   Tab 26 at 331.
30
   Tab 26 at 331.
31
   Tab 26 at 331.
                             Vice President for Research.
                       our report, the Subject has left the University and moved to another state.
34
   Tab 37.
35
   Tab 38.
36
   Tabs 38 and 39.


                                                                                                                   4
CONFIDENTIAL                                                                              CONFIDENTIAL



                                                 OIG's Assessment

.    . W~ reviewed the University investigation report and conclude that the University
mvest1gatwn was accurate, complete and in accordance with reasonable procedures. 37

        A finding of misconduct requires that: (1) there be a significant departure from accepted
practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
the evidence. 38

                                                        The Act

         We concur with the Committee that the Subject copied the material identified during our
inquiry into his two NSF proposals without appropriate attribution to the sources he used. We
also concur that the copying is a significant departure from the accepted practices of the relevant
research communities the Committee identified, as well as the standards of proper scholarship
expected of NSF Pis. 39 Thus, the preponderance of the evidence supports finding that the
Subject copied 229 lines with 37 embedded references and 1 figure without appropriate
attribution.



         In our assessment, the preponderance of the evidence weighs in favor of finding the
Subject acted knowingly despite his apparent lack of training in citation practices at the U.S.
institution granting his doctoral degree. Many of the copied passages are substantially
contiguous text with selective editing by the Subject indicating more than thoughtless cut-and-
paste assembly of the proposals. The Subject's admitted knowledge of the need to use quotation
marks when copying text verbatim and the need to provide citation to sources when paraphrasing
weigh against a finding of simple recklessness. His acknowledged failure to seek sufficient
guidance in response to his "confusion" weighs strongly in favor of finding knowing intent,
particularly in light of the Committee's determination that time constraints were not as pressing
as the Subject asserted. However, his "confusion" as described by the Committee regarding the
mechanics of paraphrasing and handling embedded references appears genuine and mitigates
against finding purposeful action. Thus, we conclude the Subject acted knowingly.




37
   45 C.F.R. 689.9(a).
38
   45 C.F.R. 689.2(c).
39
   NSF Grant Proposal Guide (GPG) I.D.3 "NSF expects strict adherence to the rules of proper scholarship and
attribution. The responsibility for proper scholarship and attribution rests with the authors of a proposal; all parts of
the proposal should be prepared with equal care for this concern."; and II.C.2.e "Proposers must be especially
careful to follow accepted scholarly practices in providing citations for source materials relied upon when preparing
any section of the proposal."


                                                                                                                        5
CONFIDENTIAL                                                            CONFIDENTIAL


                                        Standard o[Proo[

        We therefore conclude that the preponderance of the evidence supports finding the
Subj ect's actions constitute knowing plagiarism in two declined NSF proposals.


                               OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 40

                                           Seriousness

       The Subject's actions constitute a substantial amount of nearly verbatim copying from
multiple sources which he presented to NSF as his original work. The large number of
embedded references misleads the reader regarding the Subject's knowledge of the state of the
research field. Furthermore, the copied text represents the intellectual work product of the
source authors as the Subject's own work. Thus, the Subject's knowledge of the state of the field
and ability to perform the proposed work are therefore not accurately represented by the
proposals.

                             Degree to which the Act was Knowing

        As indicated above, the Subject's actions beyond simple cut-and-paste are indicative of
knowing actions. Furthermore, the Subject has identified himself in his biographical sketch 41 as
a member of the editorial board of a professional society journal. 42 The "Instructions for
Authors" for that journal contains guidance with respect to submitting original work and
                         43
citation/reference style. As a journal editor, he has implicit responsibility for ensuring the
scholarly integrity of the work submitted by others under the guidance of those instructions.
Thus, his knowing presentation of others ' work as his own is particularly troubling.

                                       Pattern o[Behavior

       We concur with the Committee that the Subject's published articles and dissertation
represent a pattern of plagiarism covering a span of at least four years.


40
     45 C.P.R. 689.3(b).
41
     Tab 2 at 67 .
42

43




                                                                                                    6
CONFIDENTIAL                                                                          CONFIDENTIAL


                                       Impact on the Research Record

        The Committee identified no federally-funded publications in the Subject's body of work
containing plagiarized material. The three articles and dissertation establishing the pattern
described above, however, do have some effect on the research record. Article 3 has been cited
only once by other researchers. The Subject has self-cited Article 2 once, and we have identified
no articles citing Article 1. 44 Thus, any effect appears minimal.

                                             Other Considerations

       As noted by the Committee, the Subject began to take steps during the investigation to
educate himself and his students further in the appropriate attribution of copied and paraphrased
materials. 45

                                               Recommendations

         Based on the evidence, OIG recommends that NSF:

         •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
             research misconduct. 46
         •   Require the Subject to certify to the Assistant Inspector General for Investigations
             (AlGI) his completion of a responsible conduct of research training program and
             provide documentation of the program's content within 1 year ofNSF's finding. 47
             The instruction should be in an interactive format (e.g., an instructor-led course) and
             specifically include treatment of plagiarism and citation practices.

         Also, for a period of3 years as ofthe date ofNSF's finding:
         • Require for each document (proposal, report, etc.) to which the Subject contributes
            for submission to NSF (directly or through his institution),
                 o the Subject to submit a certification to the AlGI that the document does not
                     contain plagiarism, falsification, or fabrication. 48
                 o the Subject to submit assurances from a responsible official of his employer to
                     the AlGI that the document does not contain plagiarism, falsification, or
                     fabrication. 49
         • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
            NSF. 50




44
   Web of Science does not index the journal that published Article I; however, given the overlap between Article ' 1
and Article 2, it is unlikely that Article 1 has been cited by other researchers.
45
   Tab 26 at 330.
46
   A Group I action 45 C.F.R. 689.3(a)(1)(i).
47
   This action is similar to Group I actions 45 C.F.R. 689 .3(a)(l ).
48
   This action is similar to 45 C.F.R. 689.3(a)(1)(iii).
49
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).
50
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).


                                                                                                                   7
CONFIDENTIAL                                                             CONFIDENTIAL



                      The Subject's Response to OIG's Draft Investigation Report 51

        The Subject provided brief comments to our draft report. He asserted that his actions
were not knowing or intentional but rather the "result of my laziness to understand the proper
citing of references and using quotes." 52 His other comments related to the University's decision
not to review his contract. 53

      The Subject's comments did not change our assessment of the allegations or
recommended actions.




51
     Tab 43.
52
     Tab 43 at 534.
53
     Tab 43 at 534.


                                                                                                 8
